HHS/OIG-Audit--"Review of Availability of Health Insurance for Title IV-DChildren, (A-01-97-02506)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Availability of Health Insurance for Title IV-D Children," (A-01-97-02506)
June 22, 1998
Complete
Text of Report is available in PDF format (896 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Connecticut has the opportunity to increase the number of noncustodial parents
(NCPs) providing medical support for their children while at the same time reducing Medicaid costs by an estimated $11.4
million per year. Many noncustodial parents, while required by court order to provide health coverage for their children,
were unable to meet this obligation because either their employers did not offer health insurance or private health insurance
was not reasonable in cost. These barriers can be overcome, however, if the State requires NCPs to pay for all or a part
of the Medicaid premiums now paid by the State, or if the State established a new comprehensive health insurance plan for
children with reasonable premiums paid by the NCPs. We recommended such options to the State. The State concurred with
our findings and our first recommended option to require NCPs to pay all or part of the premiums for their children enrolled
in Medicaid. State officials indicated they will move to consider a legislative change and budget option that addresses
this recommendation for the 1999 legislative session.